Hogan
Lovells

Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

May 8, 2019
Honorable Scott S. Harris
Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

Re:

Timmie D. Cole, Sr., et al. v. J. Ray Ormond, Warden, No. 19A

Dear Mr. Harris,
This letter is submitted in connection with the Application for an Extension
of Time to File a Petition for a Writ of Certiorari filed concurrently in the abovereferenced matter.
Applicants are five prisoners who, at the time their habeas appeals were
filed, were all incarcerated at U.S. Penitentiary McCreary (McCreary). Respondent
J. Ray Ormond was the Warden at McCreary at that time. Since then, applicant
Timmie D. Cole has been transferred from McCreary to U.S. Penitentiary
Victorville, where Louis Milusnic serves as Warden. Applicant Stephan Mason has
been transferred from McCreary to U.S. Penitentiary Atwater, where Steven Lake
serves as Warden. Finally, respondent Ormond no longer serves as Warden at
McCreary, succeeded by Gregory Kizziah.
Pursuant to Supreme Court Rule 35.3, applicants respectfully request that
this Court correct the caption of their cases and substitute the current prison
wardens as respondents.

Respectfully submitted,

Katherine Wellington
Counsel of Record

Hogan Lovells US LLP Is a limited liability partnership registered in the District of Columbia. "Hogan Lovelfs" is an international legal practice that includes Hogan Lovells US
LLP and Hogan Loves International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Oubai
Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Mlnh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan
Minneapolis Monterrey Moscow Munich New York Northern Virginia Parts Perth Philadelphia Rio de Janeiro Rome San Francisco Sao Paulo Shanghai Silicon
Valley Singapore Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers:
Johannesburg Louisville. For more information see www.hoganlovells.com

Clerk of Court

cc:

2

May 8, 2019

Noel J. Francisco, Solicitor General, U.S. Dep't of Justice
Edward Himmelfarb, Appellate Staff, Civil Division, U.S. Dep't of Justice
J. Ray Ormond
Louis Milusnic
Steven Lake
Gregory Kizziah
Office of the Clerk, U.S. Court of Appeals for the Sixth Circuit

